GENERAL SERVICES ADMINISTRATION
OFFICE OF INSPECTOR GENERAL




                     REVIEW OF THE
              GREATER SOUTHWEST REGION
               PUBLIC BUILDINGS SERVICE
                    ENERGY SAVINGS
                PERFORMANCE CONTRACT
                     TASK ORDERS
            REPORT NUMBER A100169/P/7/R11006

                     January 20, 2011
                    U.S. General Services Administration
                    Office of Inspector General



Date:      January 20, 2011

Reply to

Attn of:   Regional Inspector General for Auditing
           Greater Southwest Region (JA-7)

Subject:   Review of the Greater Southwest Region
           Public Buildings Service
           Energy Savings Performance Contract
           Task Orders
           Report Number A100169/P/7/R11006

To:        J. D. Salinas
           Regional Administrator
           Greater Southwest Region (7A)

           Jim Weller
           Regional Commissioner
           Public Buildings Service (7P)

Background

This report presents the results of the Office of Inspector General’s review of the
Greater Southwest Region (Region 7) Public Buildings Service (PBS) Energy Savings
Performance Contract (ESPC) task orders. On March 30, 2010, Region 7 awarded two
ESPC task orders totaling $28.8 million. Task Order GS-P07-10-UY-0007 was awarded
to Honeywell International, Inc. against Department of Energy (DOE) ESPC Number
DE-AM36-09G029035, in the amount of $10,317,613. Task Order GS-P07-10-UY-0006
was awarded to Schneider Electric Buildings Americas, Inc. against DOE ESPC
Number DE-AM36-09G029042, in the amount of $18,496,666. Region 7 partially
funded these task orders using American Recovery and Reinvestment Act of 2009
(ARRA) funding of $7,029,557 and $16,288,821, respectively




                              819 Taylor Street, Fort Worth, TX 76102
Report Number A100169/P/7/R11006

The DOE established the Federal Energy Management Program (FEMP) to assist
federal agencies in improving energy efficiency and reducing energy costs in their
facilities. The FEMP helps federal agencies identify, obtain, and implement alternative
financing for energy efficiency, renewable energy, and water efficiency projects. The
Super ESPCs were created by FEMP to provide a financing vehicle that allows federal
agencies to accomplish energy savings projects without upfront capital costs and
without special appropriations from Congress. Under the Super ESPC program, DOE
competitively awarded 16 indefinite delivery/indefinite quantity ESPCs to energy service
companies (ESCOs). The ESPCs establish the general scope of work, terms, and
conditions for firm-fixed price delivery/task orders for performance-based energy
projects at federally-owned buildings and facilities. Agencies implement ESPC projects
by issuing delivery/task orders against the ESPCs.

An ESPC project is a partnership between a federal agency and an ESCO. The ESCO
conducts a complete energy audit and identifies improvements that will save energy and
reduce utility bills at the facility. The ESCO designs and constructs a project that meets
the agency’s needs and arranges financing to pay for it. The ESCO guarantees the
installed energy conservation measures will result in a specified level of cost savings to
the federal agency, which will be sufficient to pay the ESCO for the project. The agency
uses the guaranteed cost savings to pay for building improvements over the life of the
contract. After the contract ends, all additional cost savings accrue to the agency.

Federal agencies are authorized and encouraged to use ESPCs through a series of
legislation and executive orders. The Consolidated Omnibus Budget Reconciliation Act
of 1985 amended the National Energy Conservation Policy Act (NECPA) by adding Title
VIII, which gave federal agencies the authority to enter into shared-energy-savings
contracts with private-sector ESCOs. The Energy Policy Act of 1992 (Public Law 102-
486) further amended NECPA to authorize federal agencies to execute guaranteed-
savings contracts, or ESPCs, with private sector ESCOs. For an overview of the
legislation and executive orders relating to ESPCs, see Appendix A.

With the enactment of ARRA, GSA PBS received $5.55 billion to improve energy
efficiency, create "green" renewable energy jobs, and rebuild the United States
infrastructure. According to GSA’s June 2009 ARRA implementation guidance, $5
billion of the funds were available for obligation until September 30, 2010, and any
obligation related to the $5 billion must be liquidated by September 30, 2015. Funding
of approximately $353 million was provided to Region 7 for use in designated buildings
and projects.

In March 2009, Region 7 was tasked with identifying projects, and developing and
implementing plans to use ARRA funds within the GSA-established timeframes. Region
7 determined ARRA expenditures for energy improvements and enhancements could
be innovatively accomplished using the DOE ESPCs. As much of the work involved
upgrading the existing Building Automation Systems (BAS), Region 7 determined the
best approach would be to contract directly with the companies providing operational
controls for the BAS.



                                            2
Report Number A100169/P/7/R11006



In March 2010, Region 7 non-competitively awarded two task orders, partially funded by
ARRA, against the DOE ESPCs. The first was awarded to Honeywell International, Inc.
(Honeywell). Region 7 prepared a justification to limit fair opportunity citing the
agency’s urgent need for the supplies or services and claimed this was awarded as a
logical follow-on task order.

The second task order was awarded to Schneider Electric Buildings Americas, Inc.
(Schneider). Region 7 prepared a justification to limit fair opportunity by again citing an
urgent need for supplies or services and that only one awardee was capable of
providing the supplies or services.

Objectives, Scope, and Methodology

Our audit objectives were to determine if Region 7:
   (1) Awarded task orders in compliance with the regulations and guidance for ESPCs;
       and
   (2) Has an effective process in place to verify the energy savings calculated by the
       Energy Service Company are accurate.

To accomplish our objectives, we:
    • Reviewed the two ESPC task orders awarded in March 2010;
    • Reviewed the process used by Region 7 in awarding the task orders and
      validating the ESCOs measurement and verification (M&V) plan;
    • Reviewed training certificates and applicable licenses to ensure personnel
      assigned to M&V validation had the technical expertise (training and experience)
      to oversee the projects;
    • Verified: (1) utility rates used in the cost savings calculations to ensure the rates
      per location were accurate, and (2) proposed energy savings calculated by the
      ESCO were accurate;
    • Assessed the risk that illegal acts, material noncompliance, or abuse could occur
      with the issuance of the task orders;
    • Assessed Region 7’s internal controls related to our audit objectives;
    • Reviewed prior ESPC task orders awarded by Region 7 to identify any findings or
      issues related to our audit objectives; and
    • Met with the Region 7 Energy Team and the project manager for the reviewed
      task orders.

Audit work was conducted in the Region 7 field audit office, and site visits were made to
several federal buildings and facilities included in the task orders.

We conducted the audit from June 2010 through September 2010 in accordance with
generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We


                                            3
Report Number A100169/P/7/R11006

believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Results of Audit
Region 7 was innovative in using ESPCs to optimize ARRA funds and make federal
facilities more energy efficient. However, the Honeywell task order was not awarded in
compliance with the competition requirements of the United States Code (USC),
Federal Acquisition Regulation (FAR), and ESPC guidance because the justification for
limiting fair opportunity was not valid. Region 7 inappropriately cited an urgent need for
the supplies and services and logical follow-on exceptions. While the justification for the
Schneider task order was also inappropriately based in part on urgency, we take no
exception to that award because Region 7 also justified limiting fair opportunity on the
basis that only a single source was capable of providing the required supplies or
services. Further, we take no exception to the process Region 7 has in place to verify
the energy savings calculated by the ESCO are accurate.

Compliance with Regulations and Guidance
The Honeywell task order (GS-P07-10-UY-0007) was not awarded in compliance with
competition requirements of the USC, FAR, and ESPC guidance. In accordance with
41 USC § 253(a)(1), executive agencies shall obtain full and open competition through
the use of competitive procedures and use the competitive procedure or combination of
competitive procedures that is best suited under the circumstances of the procurement.
Further, FAR 16.505(b)(1)(i) states that the contracting officer must provide each
awardee a fair opportunity to be considered for each order exceeding $3,000 issued
under multiple delivery order contracts or multiple task order contracts.

However, in accordance with 41 USC § 253(c) and FAR 16.505(b)(2), agencies may
award task orders without fair opportunity under certain circumstances. Specifically,
DOE ESPC Section H.3, Procedures for Awarding Task Orders, states that the agency
contracting officer must provide each contractor a fair opportunity to be considered for
any task order award unless one of the following exceptions applies:
      A.     The agency need for the supplies or services is so urgent that
             providing a fair opportunity would result in unacceptable delays;

      B.     Only one awardee is capable of providing the supplies or services
             required at the level of quality required because the supplies or
             services ordered are unique or highly specialized;

      C.     The order must be issued on a sole source basis in the interest of
             economy and efficiency as a logical follow-on to an order already
             issued under the contract, provided that all awardees were given a
             fair opportunity to be considered for the original task order; or

      D.     It is necessary to place an order to satisfy a minimum guarantee.




                                            4
Report Number A100169/P/7/R11006

While Region 7 provided justification for limiting fair opportunity, this justification is not
valid because Region 7 could not demonstrate an urgent need for the supplies or
services. If any urgency existed, it was the need to award the task order within 30 days
so that ARRA funds could be used.

The award justification cited DOE ESPC Section H.3.2 (A) which states “The agency
need for the supplies or services is so urgent that providing a fair opportunity would
result in unacceptable delays.” It also states:
       Based on the tight time frames to get this work awarded and completed,
       this contract needs to be awarded within the next 30 days...To meet the
       required schedules for award and completion, the contracts must be
       awarded immediately. To allow fair consideration to all contractors and to
       review all proposals received, would create an unacceptable risk for GSA
       to obtain this funding and making awards in a timely manner to meet the
       stimulus goals and requirements...

However, this basis is not viable. According to 41USC § 253(f)(4)(A):

       In no case may an executive agency…enter into a contract for property or
       services using procedures other than competitive procedures on the basis
       of the lack of advance planning or concerns related to the amount of funds
       available to the agency for procurement functions.

Further, OMB guidance dated February 18, 2009, stipulates the need to commence
ARRA expenditures quickly, which does not in itself constitute sufficient justification to
award contracts without competition.

In addition, in discussions about the task order, PBS personnel also cited the logical
follow-on exception as a basis for not providing fair opportunity. Although Region 7 did
not specifically cite ESPC Section H.3.2 that provides for a logical follow-on exception,
the justification stated the following:

       We are seeking Honeywell to perform these services due to the fact they
       have already provided a building commissioning audit for the Oklahoma
       buildings. In addition, a building commissioning audit was performed by
       Central Office on the Laredo building… To avoid duplication of costs,
       efforts and delay, it is in the best interest of the Government to have
       Honeywell use the work they have already completed, as a logical follow
       on to the projects listed in this document.

According to FAR 16.505(b)(2)(iii) and DOE ESPC Section H.3.2 (C), orders may be
issued on a sole source basis in the interest of economy and efficiency as a logical
follow-on to an order already issued under the contract, provided that all awardees
were given a fair opportunity to be considered for the original order.

We found Honeywell had performed a preliminary assessment (PA) in 2008 under its
prior DOE ESPC. However no task order was awarded because Honeywell’s ESPC


                                              5
Report Number A100169/P/7/R11006

had reached its maximum ordering level. While the PA was for two of the buildings
included in task order GS-P07-10-UY-0007, the logical follow-on exception is not valid
because an order had not been issued, and DOE’s prior ESPC contract was no longer
in existence. As such, the justification for limiting fair opportunity in awarding the
Honeywell task order was not valid.

The justification for the Schneider task order was also partly based on urgent need in
accordance with DOE ESPC Section H.3.2 (A). However the justification also cited
DOE ESPC Section H.3.2 (B) which states:

       Only one awardee is capable of providing the supplies or services at the
       level of quality required because the supplies or services are unique or
       highly specialized.

       The use of the contractor who is the manufacturer of the Energy
       Management Control System (EMCS) allows for full compliance with the
       scope, full access including the licensing, the controls systems, and first
       hand knowledge and expertise of the programming of the proprietary
       EMCS systems. The use of a contractor that has full control and access
       to the EMCS systems is essential to the Government's requirements,
       thereby precluding consideration of a product manufactured by another
       company.

Our site visits confirmed components of the EMCS in selected buildings were indeed
Schneider-unique or Schneider-owned equipment. Therefore the portion of the
justification stating "Only one awardee is capable of providing the supplies or services at
the level of quality required because the supplies or services are unique or highly
specialized" appears to provide an adequate exception to fair opportunity.

It should be noted Region 7’s operational practice is to have the same
manufacturer/contractor install EMCS in geographically contiguous groups of buildings
to match their current EMCS in each location. The Schneider task order was awarded
in accordance with this practice. However, the EMCS control equipment on buildings
included on the Honeywell task order were originally manufactured by companies other
than Honeywell.

Recommendations
We recommend Region 7 ensures:

   •   Future justifications for other than full and open competition on all
       procurements are valid; and
   •   Region 7 personnel are aware of OMB guidance related to ARRA funds.




                                            6
Report Number A100169/P/7/R11006



Management Comments

Based on discussions with management and their agreement to take corrective action
(see Appendix B), we infer management concurs with our finding.

If you have any questions regarding the report, please contact me at 817-978-2571.



Grace D. McIver
Audit Manager
Greater Southwest Region (JA-7)

Attachments




                                          7
Report Number A100169/P/7/R11006

                               REVIEW OF THE
                        GREATER SOUTHWEST REGION
                         PUBLIC BUILDINGS SERVICE
                              ENERGY SAVINGS
                         PERFORMANCE CONTRACTS
                               TASK ORDERS
                      REPORT NUMBER A100169/P/7/R11006

APPENDIX A
Overview of Legislation and Executive Orders Relating to ESPC

The National Energy Conservation Policy Act (NECPA), by means of amendment to the
Consolidated Omnibus Budget Reconciliation Act of 1985 (P.L. 99-272), gave federal
agencies the authority to enter into shared-energy-savings contracts with private sector
energy service companies (ESCOs), provided the: (1) contractor incurs all costs, and
(2) term of the contract does not exceed 25 years. NECPA also requires annual
measurement and verification energy audits and directs that aggregate annual
payments not exceed what agencies would have paid for utilities otherwise.

The Energy Policy Act of 1992 (Public Law 102-486) further amended NECPA to
authorize federal agencies to execute guaranteed-savings contracts, or energy savings
performance contracts (ESPCs), with private sector ESCOs. It also directed the
Department of Energy (DOE) to develop an ESPC regulation through a formal
rulemaking process. The final ESPC rule was published on April 10, 1995, and
implemented the DOE ESPC regulation at 10 CRF Part 436 Subpart B.

Executive Order 13123, June 3, 1999, defines requirements for agencies to meet
specific energy goals, and strongly supports the use of alternative financing methods,
including ESPCs, to achieve them.

The Ronald W. Reagan National Defense Authorization Act for FY 2005, P.L.108-375,
Sec. 1090, Oct. 28, 2004, amended NECPA to extend ESPC authority through
September 30, 2006, and revised the definition of energy savings to include water
conservation measures.

Executive Order 13423, released in January 2007, requires federal facilities to reduce
their energy use per square foot by 3 percent per year, 2006 –2015 relative to 2003.
Also federal facilities must increase their use of renewable energy, and reduce water
use by 2 percent per year, 2008 –2015 (or sixteen percent by end of 2015), relative to
2007.

Executive Order 13514, October 2009, issued by the Obama administration, builds and
expands the energy reduction and environmental requirements of Executive Order
13423 by making reductions of greenhouse gas emissions a priority of the Federal
Government, and by requiring agencies to develop sustainability plans focused on cost-
effective projects and programs.


                                          A-1
Report Number A100169/P/7/R11006

                           REVIEW OF THE
                    GREATER SOUTHWEST REGION
                     PUBLIC BUILDINGS SERVICE
                          ENERGY SAVINGS
                     PERFORMANCE CONTRACTS
                           TASK ORDERS
                  REPORT NUMBER A100169/P/7/R11006

APPENDIX B
Management’s Comments




                                   B-1
Report Number A100169/P/7/R11006

                                      REVIEW OF THE
                               GREATER SOUTHWEST REGION
                                PUBLIC BUILDINGS SERVICE
                                     ENERGY SAVINGS
                                PERFORMANCE CONTRACTS
                                      TASK ORDERS
                             REPORT NUMBER A100169/P/7/R11006


APPENDIX C
Report Distribution

Regional Administrator, Greater Southwest Region (7A) ................................................ 1

Acting Regional Commissioner, Public Buildings Service (7P1) ..................................... 1

Inspector General, Office of Inspector General (J) .......................................................... 4

Assistant Inspector General for Auditing (JA) .................................................................. 2

Director, Audit Planning, Policy, and Operations (JAO) .................................................. 1

Deputy Assistant Inspector General for Acquisition Audits (JA-A) .................................. 1

Special Agent In Charge, Greater Southwest Region Investigations Office (JI-7) ........... 1

Branch Chief, Internal Control and Audit Division (BEI) .................................................. 1




                                                      C-1
